6
Certificate of Service
I, Appellant Veronica Delph, hereby certifies that on August 5, 2020, she
served this PETITION FOR WRIT OF CERTIORARI by dispatch to a third-party
commercial carrier for overnight delivery by US. Mail to:
SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
Washington, D.C. 20543-0001
United States Court of Appeals for the Eighth Circuit
Clerk’s office
Thomas F. Eagleton Court House
Room 24,329
111 South 10th Street
St. Louis, Missouri 63102-1125
The Clerk’s Office of the United States District Court
Eastern District of Arkansas
Western Division
500 West Capitol Avenue
Little Rock, Arkansas 72201
The Defendant and the Attorney
MELVIN KIRKWOOD
Assistant Manager for UAMS, and
THE BOARD OF TRUSTEE OF
The UNIVERSITY OF ARKANSAS
SHERRIE ROBINSON #97194
General Counsel Univ. of Arkansas for Medical Sciences
4301 West Markham, Street Slot 860
Little Rock, Arkansas 72205
VERONICA DELPH

7

SUPREME COURT OF THE UNITED STATES

(STATE OF ARKANSAS)
(COUNTY OF PULASKI)
VERONICA DELPH vs. MELVIN KIRKWOOD, Assistant Manager, UAMS

r
I, \hfOi)lCa

AFFIDAVIT
the Appellant, Veronica Delph am

Knowledgeable of the facts of this case I hereby state upon oath that stateements
contained in the foregoing pleading are true and Correct to the best of my
Knowledge and belief.
A photocopy and or fax of this document shall serve the same purpose as an
original.
Dated this

day of

2020.

\0f ^

PAOUlDt

VERONICA DELPH
Subscribed and sworn to before me this

day of

2020.

f

Notary Public
Q c-i-Us Z-j

ZQZA-

My Commission Expires

.‘COMM. EXP/.

; / 10-23-2027 \ c
|★INO. 12363284: ★§
PULASKI

W°--NW

